TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Improvement Is Needed to Better Enable
                      Frontline Employee Identification of
                    Potentially Dangerous and Caution Upon
                              Contact Designations



                                          March 20, 2014

                              Reference Number: 2014-40-020




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


IMPROVEMENT IS NEEDED TO BETTER                       representative has been designated as PDT or
ENABLE FRONTLINE EMPLOYEE                             CAU. While a frontline employee can research
IDENTIFICATION OF POTENTIALLY                         an individual’s tax account for the PDT or CAU
DANGEROUS AND CAUTION UPON                            designation using the individual’s Social Security
                                                      Number (SSN), the employee typically does not
CONTACT DESIGNATIONS
                                                      have a taxpayer representative’s SSN. The
                                                      employee generally must search for the
Highlights                                            representative’s tax account using the
                                                      representative’s name. Without the SSN, the
                                                      employee is unable to definitively identify and
Final Report issued on                                examine the representative’s tax account for a
March 20, 2014                                        PDT or CAU indicator.

Highlights of Reference Number: 2014-40-020           As of August 29, 2013, the IRS designated
to the Internal Revenue Service Deputy                84 taxpayer representatives with a PDT or CAU
Commissioner for Services and Enforcement.            indicator. Although this number is a small
                                                      percentage of the 2.3 million representatives in
IMPACT ON TAXPAYERS                                   the Centralized Authorization File, the safety of
                                                      frontline employees, others working in the same
The IRS has approximately 25,000 employees
                                                      facilities, and taxpayers is at risk when these
who have direct contact with taxpayers and their
                                                      employees unknowingly meet with potentially
representatives (hereafter referred to as frontline
                                                      dangerous taxpayer representatives. IRS
employees). The safety of its employees is a
                                                      employees reported four incidents of physical
top priority for the IRS. As such, the IRS has
                                                      assault by taxpayer representatives in Calendar
programs to help protect employees when
                                                      Years 2010 through 2012. The IRS agreed that
interacting with individuals who are known to be
                                                      even one assault is one too many.
violent, abusive, or pose some other type of
danger. Examples include the Potentially              WHAT TIGTA RECOMMENDED
Dangerous Taxpayer (PDT) and Caution Upon
Contact (CAU) programs.                               TIGTA recommended that the Deputy
                                                      Commissioner for Services and Enforcement:
WHY TIGTA DID THE AUDIT                               1) develop a process to enable frontline
                                                      employees to readily access information that
This audit was initiated in response to a
                                                      identifies whether a taxpayer representative has
Treasury Inspector General for Tax
                                                      been designated as a PDT or CAU; and
Administration Office of Investigations referral
                                                      2) ensure that internal guidance is updated with
that identified paid tax return preparers who may
                                                      procedures to research taxpayer representative
pose a threat to IRS employees conducting
                                                      designations and that outreach and training is
official business. Frontline IRS employees can
                                                      performed to ensure that frontline employees
be exposed to many difficult, threatening, and
                                                      are knowledgeable of the revised process.
dangerous situations. The overall objective of
this review was to determine the adequacy of          IRS management’s response to the report states
processes and procedures for employees who            that they believe their current procedures are
have direct contact with taxpayer                     appropriate to ensure the safety of employees.
representatives to identify those representatives     However, TIGTA remains concerned that
who are designated as potentially dangerous or        frontline employees do not have a process to
who need to be approached with caution upon           readily identify whether a taxpayer
contact.                                              representative has been designated as PDT or
                                                      CAU.
WHAT TIGTA FOUND
The IRS has not developed sufficient
procedures to enable frontline employees to
readily identify whether a taxpayer
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 20, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvement Is Needed to Better Enable
                             Frontline Employee Identification of Potentially Dangerous and
                             Caution Upon Contact Designations (Audit # 201340030)

 This report presents the results of our review of the adequacy of processes and procedures for
 employees who have direct contact with taxpayer representatives to identify those
 representatives who are designated as potentially dangerous or who need to be approached with
 caution upon contact. This audit was initiated in response to a Treasury Inspector General for
 Tax Administration Office of Investigations referral that identified paid preparers who may pose
 a threat to IRS employees conducting official business. This audit is included in the Treasury
 Inspector General for Tax Administration’s Fiscal Year 2014 Annual Audit Plan and addresses
 the major management challenge of Security for Taxpayer Data and Internal Revenue Service
 (IRS) Employees.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have questions, please contact me or Russell P. Martin, Acting
 Assistant Inspector General for Audit, Returns Processing and Account Services.
                        Improvement Is Needed to Better Enable Frontline Employee
                               Identification of Potentially Dangerous and
                                  Caution Upon Contact Designations




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Procedures Are Needed to Better Identify Taxpayer
          Representatives Designated As Potentially Dangerous
          or Caution Upon Contact .............................................................................. Page 4
                    Recommendations 1 and 2: ................................................ Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List……………………………………Page 9
          Appendix IV – Management’s Response to the Draft Report…………….. Page 10
        Improvement Is Needed to Better Enable Frontline Employee
               Identification of Potentially Dangerous and
                  Caution Upon Contact Designations




                      Abbreviations

CAF             Centralized Authorization File
CAU             Caution Upon Contact
IRS             Internal Revenue Service
OEP             Office of Employee Protection
PDT             Potentially Dangerous Taxpayer
SSN             Social Security Number
TIGTA           Treasury Inspector General for Tax Administration
                                Improvement Is Needed to Better Enable Frontline
                                 Employee Identification of Potentially Dangerous
                                     and Caution Upon Contact Designations




                                                Background

The Internal Revenue Service (IRS) has approximately 25,000 employees who have direct
contact with taxpayers and their representatives1 (hereafter referred to as frontline employees).
The safety of its employees is a top priority for the IRS because its employees can be exposed to
many difficult, threatening, and dangerous situations. The IRS has programs that focus on
employee protection that include the Potentially Dangerous Taxpayer (PDT) and Caution Upon
Contact (CAU) programs.
The Office of Employee Protection (OEP) in the Small Business/Self-Employed Division
administers these programs and maintains the Employee Protection System. This system lists
taxpayers and taxpayer representatives that the IRS has designated as a PDT or CAU. The
process to identify and designate an individual as a PDT or CAU begins when an employee
reports an incident involving a threat or assault to the Treasury Inspector General for Tax
Administration (TIGTA) Office of Investigations or to the OEP.
          PDT Referrals: Employees contact the TIGTA Office of Investigations when an
           incident occurs that meets PDT criteria. If there is sufficient evidence to initiate an
           investigation, the TIGTA Office of Investigations will electronically forward the
           information to the OEP’s Employee Protection System. The OEP will place a pending
           PDT indicator on the individual’s tax account. Once the investigation is complete, the
           OEP will make the determination as to whether the taxpayer should be designated as a
           PDT and update the individual’s tax account and the Employee Protection System.
          CAU Referrals: Employees submit Form 13090, Caution Indicator Referral Report,
           directly to the OEP. The OEP reviews the information and determines whether the
           referral meets the CAU criteria. Once the determination has been made, the OEP staff
           will update the individuals’ tax account with a CAU indicator and add the individual to
           the Employee Protection System.
Figure 1 details the criteria for designating an individual as PDT or CAU.




1
    Representatives include attorneys, certified public accountants, enrolled agents, and paid tax return preparers.
                                                                                                                 Page 1
                            Improvement Is Needed to Better Enable Frontline
                             Employee Identification of Potentially Dangerous
                                 and Caution Upon Contact Designations



                      Figure 1: Criteria for PDT and CAU Designations

PDT Criteria
       Taxpayers who physically assault IRS employees or contractors or their immediate family.
       Taxpayers who attempt to intimidate or threaten IRS employees or contractors or members of
        their immediate family through specific threats of bodily harm, a show of weapons, the use of
        animals, or specific threatening behavior such as stalking.
       Persons who are active members of groups that advocate violence against IRS or other Federal
        employees, where advocating such violence could reasonably be understood to threaten the
        safety of IRS employees and impede the performance of IRS duties.

       Taxpayers who have committed the acts set forth in any of the preceding criteria, but whose acts
        have been directed against employees or contractors of other governmental agencies at Federal,
        State, county, or local levels.

       Taxpayers who are not classified as PDTs through application of the above criteria but who have
        demonstrated a clear propensity towards violence through acts of violent behavior within the
        five-year period immediately preceding the time of classification as potentially dangerous.

CAU Criteria
       Threat of physical harm to an IRS employee that is less severe or immediate than necessary to
        satisfy PDT criteria.
       Suicide threat by the taxpayer.

       Filing or threatening to file a frivolous lien or a frivolous criminal or civil action against an IRS
        employee or contractor or their immediate family.
Source: A Guide to the Office of Employee Protection, Document 12963 (1-2012).

As of August 29, 2013, there were 2,169 individuals designated as a PDT and 4,971 individuals
designated as CAU in the Employee Protection System.

A prior TIGTA review found that PDT and CAU cases were adequately controlled
In January 2013, we reported that the OEP has sufficient controls to ensure that cases referred to
the PDT and CAU programs are appropriately processed and controlled.2 A review of PDT and
CAU cases identified that designation determinations were appropriate and taxpayer accounts
were timely updated with required indicators. In addition, we found that the Employee
Protection System records were accurate and complete.



2
 TIGTA, Ref. No. 2013-40-014, Potentially Dangerous Taxpayer and Caution Upon Contact Cases Are Adequately
Controlled, but Improvements in Training and Outreach Are Needed (Jan. 2013).
                                                                                                          Page 2
                        Improvement Is Needed to Better Enable Frontline
                         Employee Identification of Potentially Dangerous
                             and Caution Upon Contact Designations



This audit was initiated in response to a January 2013 TIGTA Office of Investigations referral
that identified paid tax return preparers who had violent felony convictions within the last five
years who may pose a threat to IRS employees conducting official business. This review was
performed in the Wage and Investment Division in Atlanta, Georgia, and the Small
Business/Self-Employed Division and OEP in Detroit, Michigan, during the period May through
November 2013. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our finding and conclusion based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                           Page 3
                             Improvement Is Needed to Better Enable Frontline
                              Employee Identification of Potentially Dangerous
                                  and Caution Upon Contact Designations




                                      Results of Review

Procedures Are Needed to Better Identify Taxpayer Representatives
Designated As Potentially Dangerous or Caution Upon Contact
The IRS has not developed sufficient procedures to enable frontline employees to readily
identify whether a taxpayer representative has been designated as a PDT or CAU. While a
frontline employee can research an individual’s tax account for the PDT or CAU designation
using the individual’s Social Security Number (SSN), the employee typically does not have a
taxpayer representative’s SSN. The employee generally must search for the representative’s tax
account using the representative’s name. Without the SSN, the employee is unable to
definitively identify and examine the representative’s tax account for a PDT or CAU indicator.
Identifying a representative’s tax account using his or her name rather than an SSN is difficult
because the Individual Master File3 contains about 230 million tax accounts, and many
individuals have the same or a similar name. The process can be further complicated if
individuals use their middle name as their first name or use their initials when completing tax
forms.
The IRS issued guidance to frontline employees in August 2013 detailing steps that can be
followed in an attempt to identify whether a taxpayer representative has been designated as a
PDT or CAU. However, these steps are inefficient and can result in the employee being unable
to identify the representative’s tax account. Employees are told they can use the representative’s
name on Form 2848, Power of Attorney and Declaration of Representative,4 or on the
Centralized Authorization File (CAF)5 to search for the representative’s tax account on the
Individual Master File.
The IRS does maintain systems that can be used to better identify if a taxpayer representative has
either a PDT or CAU designation. However, these systems either do not provide the designation
information or the IRS is unwilling to grant employees access based on concerns for privacy.
For example:
        The CAF contains information on taxpayer representatives. The information entered into
         the CAF is from the Form 2848. Frontline employees access the CAF regularly to
         confirm that a representative has the necessary authorization to represent a taxpayer. For

3
  The IRS database that stores various types of taxpayer account information.
4
  Form 2848 is submitted by a taxpayer representative to the IRS to gain authorization to represent taxpayers before
the IRS.
5
  The CAF, maintained by the Wage and Investment Division, is a computerized system of records that houses
authorization information for about 2.3 million taxpayer representatives.
                                                                                                             Page 4
                             Improvement Is Needed to Better Enable Frontline
                              Employee Identification of Potentially Dangerous
                                  and Caution Upon Contact Designations



          example, employees research the CAF to ensure that the representatives have a current
          power of attorney on record that authorizes them to represent the taxpayer. However, the
          CAF does not have PDT or CAU information, nor does the CAF provide the SSN of a
          representative to enable the frontline employee to research their tax account and
          determine whether the representative has been designated as a PDT or CAU.
         The Employee Protection System provides information on individuals and taxpayer
          representatives who are designated as a PDT or CAU. However, OEP officials noted that
          this system also has sensitive information that frontline employees do not need to access,
          such as the details of investigations. The OEP officials stated that granting this access
          may not be permissible under current privacy rules, which are intended to protect
          taxpayer privacy.
In our previous audit, we reported that some frontline employees do not have sufficient
knowledge of the PDT and CAU programs. Our interviews with employees identified several
incidents that were not reported to the TIGTA or the OEP. The IRS plans to develop and
distribute PDT and CAU training material to all operating divisions for required sharing with
their frontline employees.
When we raised our concern regarding frontline employees’ lack of access to information needed
to readily identify whether a representative has been designated as a PDT or CAU, OEP officials
stated that they can input PDT and CAU indicators in the CAF system if the CAF is enhanced to
store this information. This action would improve and simplify the process for identifying
taxpayer representatives with a PDT or CAU designation.
As of August 29, 2013, the Employee Protection System listed 84 taxpayer representatives with a
PDT or CAU indicator. Although this number is a small percentage of the 2.3 million
representatives in the CAF, the safety of frontline employees, and others working in the same
facilities, is at risk when these employees unknowingly meet with potentially dangerous taxpayer
representatives. Moreover, the number of taxpayer representatives designated with a PDT or
CAU indicator may increase after the IRS takes corrective action to address the weakness
reported in our previous audit. In Calendar Years6 2010 through 2012, IRS employees reported
four incidents of physical assault by taxpayer representatives. The IRS agreed that even one
assault is one too many.




6
    The 12-consecutive-month period ending on December 31.
                                                                                             Page 5
                        Improvement Is Needed to Better Enable Frontline
                         Employee Identification of Potentially Dangerous
                             and Caution Upon Contact Designations



Recommendations
The Deputy Commissioner for Services and Enforcement should:
Recommendation 1: Develop a process to enable frontline employees to readily access
information that identifies whether a taxpayer representative has been designated as a PDT or
CAU. This could include adding PDT and CAU designations to the CAF system.
       Management’s Response: The IRS disagreed with this recommendation. The IRS
       acknowledged that its current procedures for identifying whether a taxpayer’s
       representative has a PDT or CAU designation are cumbersome. However, the IRS
       stated that these procedures are appropriate to ensure the safety of its employees.
       Additionally, the IRS stated that the less cumbersome procedure described in the
       report potentially may have a significant adverse impact on overall tax administration.
       The IRS will continue to review its processes and update them as warranted.
       Office of Audit Comment: We disagree with the IRS’s statement that existing
       procedures are appropriate to ensure the safety of its employees. As we have shown in
       our report, the IRS’s process and procedures can result in an employee not identifying
       whether a representative has a PDT or CAU designation. In addition, the IRS provided
       no evidence or support for its assertion that implementation of our recommendation may
       have an adverse impact on overall tax administration.
Recommendation 2: Ensure that internal guidance is updated with procedures to research
taxpayer representative designations and that outreach and training is performed to ensure that
frontline employees are knowledgeable of the revised process.
       Management’s Response: The IRS will initiate appropriate outreach to ensure
       that frontline employees are aware of current PDT and CAU designation processes as
       well as any changes that are made to this process in the future.




                                                                                           Page 6
                               Improvement Is Needed to Better Enable Frontline
                                Employee Identification of Potentially Dangerous
                                    and Caution Upon Contact Designations



                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine the adequacy of processes and procedures for employees
who have direct contact with taxpayer representatives to identify those representatives who are
designated potentially dangerous or who need to be approached with caution upon contact.
I.         Evaluated current IRS guidelines, regulations, and training for employees who have
           direct contact with taxpayer representatives to determine if the information is sufficient to
           warn employees meeting directly with those representatives who are designated as PDT
           or CAU.
II.        Determined the number of taxpayer representatives who have a PDT or CAU indicator on
           their personal Individual Master File1 account. To complete this objective, we compared
           data from various IRS systems to determine if the systems have adequate data for
           employees to identify whether a taxpayer representative or a third-party designee has a
           PDT or CAU indicator on his or her tax account.
III.       Determined the number of employees who potentially interact with the taxpayer
           representatives noted above.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the PDT/CAU database in the Employee
Protection System, the CAF file, employee training requirements, and the IRS’s internal
PDT/CAU guidelines and procedures. We evaluated these controls by interviewing
management, analyzing data, and reviewing policies, procedures, and training requirements.




1
    The IRS database that stores various types of taxpayer account information.
                                                                                                 Page 7
                       Improvement Is Needed to Better Enable Frontline
                        Employee Identification of Potentially Dangerous
                            and Caution Upon Contact Designations



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
W. Allen Gray, Director
Lena Dietles, Audit Manager
Patricia Jackson, Lead Auditor
Lance Welling, Senior Auditor




                                                                                          Page 8
                      Improvement Is Needed to Better Enable Frontline
                       Employee Identification of Potentially Dangerous
                           and Caution Upon Contact Designations



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Operations, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Support, Wage and Investment Division SE:W
Director, Office of Professional Responsibility SE:OPR
Director, Return Preparer Office SE:RPO
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Strategic Data Services IG:OI:SDS
Director, Strategy and Finance, Small Business/Self-Employed Division SE:S:SF
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Office of Employee Protection, Small Business/Self-Employed Division SE:S:CS:P&G
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Chief Council CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                    Page 9
        Improvement Is Needed to Better Enable Frontline
         Employee Identification of Potentially Dangerous
             and Caution Upon Contact Designations



                                                   Appendix IV

Management’s Response to the Draft Report




                                                            Page 10
Improvement Is Needed to Better Enable Frontline
 Employee Identification of Potentially Dangerous
     and Caution Upon Contact Designations




                                                    Page 11
Improvement Is Needed to Better Enable Frontline
 Employee Identification of Potentially Dangerous
     and Caution Upon Contact Designations




                                                    Page 12
